HHS/OIG, Audit -"Effect of Staffing on Quality of Care at Nursing Facilities - Luverne Health and Rehabilitation,"(A-04-04-04004)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Effect of Staffing on Quality of Care at Nursing Facilities - Luverne Health and Rehabilitation," (A-04-04-04004)
February 5, 2004
Complete
Text of Report is available in PDF format (159 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine if the nursing facility was in compliance with Federal and State staffing
laws and regulations.  We concluded that the facility complied with applicable staffing laws and regulations.